        ANTONELLI COLLEGE’S ADMINISTRATION OF
        STUDENT FINANCIAL ASSISTANCE PROGRAMS




                                 FINAL AUDIT REPORT




                                 Audit Control Number 05-80008
                                         February 1999




Our mission is to promote the efficient                          U.S. Department of Education
and effective use of taxpayer dollars                            Office of Inspector General
in support of American education                                 Chicago, IL
                               NOTICE

Statements that management practices need improvement, as well as other
conclusions and recommendations in this report, represent the opinions of the
Office of Inspector General. Determination of corrective action to be taken
will be made by appropriate Department of Education officials. This report
may be released to members of the press and general public under the Freedom
of Information Act.
                                                                                 February 16, 1999

MEMORANDUM
TO:            Greg Woods
               Chief Operating Officer
               Office of Student Financial Assistance Programs


FROM:          Richard J. Dowd
               Regional Inspector General
               for Audit - Region V

SUBJECT:       FINAL AUDIT REPORT
               Antonelli College, Cincinnati Ohio
               Administration of Student Financial Assistance Programs
               ED Audit Control Number A05-80008

Attached is the final audit report of Antonelli College’s Administration of the Student Financial
Assistance Programs. In accordance with the Department’s Audit Resolution Directive, you have
been designated as the action official responsible for the resolution of the findings and
recommendations in this report.

If you have any questions or wish to discuss the contents of this report, please contact me at 312-
886-6503. Please refer to the above audit control number in all correspondence relating to this
report.



Attachment
                                                                                 February 16, 1999

Ms. Mary Ann Davis, President
Antonelli College
124 East Seventh Street
Cincinnati, Ohio 45202

Dear Ms. Davis:

Enclosed is our Final Audit Report entitled, “Antonelli College’s Administration of the Student
Financial Assistance Programs.” If you have any additional comments or information that you
believe may have a bearing on the resolution of this audit, you should send them directly to the
following Education Department official, who will consider them before taking final Departmental
action on the audit:

               Greg Woods, Chief Operating Officer
               Office of Student Financial Assistance Programs
               U.S. Department of Education
               Regional Office Building, Room 4004
               7th and D Streets, S.W.
               Washington, D.C. 20202-5340

Office of Management and Budget Circular A-50 directs Federal agencies to expedite the
resolution of audits by initiating timely action on the findings and recommendations contained
therein. Therefore, receipt of your comments within 35 days would be greatly appreciated.

In accordance with the Freedom of Information Act (Public Law 90-23), reports issued to the
Department’s grantees and contractors are made available, if requested, to members of the press
and the general public to the extent information contained therein is not subject to exemptions in
the Act.


                                              Sincerely,



                                              Richard J. Dowd
                                              Regional Inspector General
                                              for Audit - Region V

Attachment
                                                                                          Audit Results


                          EXECUTIVE SUMMARY
Antonelli College [Antonelli] did not adequately administer the Title IV, Higher Education Act
[HEA] student financial assistance [SFA] programs and account for SFA transactions because it
has not established strong management controls and an adequate accounting system. As a result,
SFA funds are at risk. The Office of Student Financial Assistance Programs [OSFAP] should: (1)
place Antonelli on reimbursement, impose significant fines, and impose any other Title 34, Code
of Federal Regulations [CFR], Part 668, Subpart G action it deems appropriate; (2) instruct
Antonelli to return $6,653 of SFA funds to the Department of Education [ED] and disburse $442
of credit balances to students; (3) instruct Antonelli to establish adequate checks and balances in
its management control system; and (4) instruct Antonelli to establish and implement controls to
ensure that all SFA transactions are accurately recorded, reconcile Federal Pell Grant [Pell] and
Federal Supplemental Educational Opportunity Grant [FSEOG] program funds for the 1996-1997
award year, and make refunds by writing checks to the Federal account.

Antonelli disagreed that it did not adequately administer the Title IV, HEA programs and account
for SFA transactions because it has not established strong management controls and an adequate
accounting system. We have considered Antonelli’s comments and made some minor revisions
and dropped one sub-finding in the second finding. We have summarized Antonelli’s comments
and our response in each sub-finding. Antonelli’s response to the draft report included
voluminous documentation, therefore, we have attached the transmittal letter, but not the
documentation to the report. Instead, we are forwarding the documentation to the action official
along with the final report.


                                 AUDIT RESULTS
ANTONELLI DID NOT                     Our audit identified numerous instances where Antonelli did
ADEQUATELY ADMINISTER                 not comply with program regulations. From a universe of
THE SFA PROGRAMS                      703 student files maintained at the three Antonelli
                                      campuses, we reviewed 160 randomly selected files [23
                                      percent] and found one or more instance of noncompliance
                                      in 134 files [84 percent]. We found a total of 306
                                      exceptions in the 134 files. We believe the noncompliance
                                      occurred because, contrary to 34 CFR 668.16(c)(1),
                                      Antonelli did not have adequate checks and balances in its
                                      management control system. Based on the significance of
                                      the noncompliance issues identified, we concluded that
                                      Antonelli did not adequately administer the SFA programs.
                                      Specifically, we found that Antonelli did not:

                                      1. Properly award or disburse SFA funds. The file review
                                         disclosed 83 instances of noncompliance consisting of:

                                          ! 15 Pell overpayments [34 CFR 690.63(c)];



FINAL AUDIT REPORT                             Page 1               ED-OIG-AS, Audit Control Number 05-80008
                                                                         Audit Results

                        ! 1 Pell underpayment [34 CFR 690.63(c)];
                        ! 2 loan limit exceeded/loan overcertified [34 CFR
                          682.204(a)(1) and 34 CFR 682.603(d)];
                        ! 41 Pell, FSEOG, and Federal Family Education
                          Loan (FFEL) programs early disbursements [34
                          CFR 668.165(c) and 682.604(d)];
                        ! 19 Pell, FSEOG, and FFEL disbursements to
                          ineligible students [34 CFR 668.32]; and
                        ! 5 double disbursements of Pell and FSEOG [34 CFR
                          668.16(c)].

                     Antonelli generally disagreed with the finding. It disagreed
                     with 72 instances, the majority because (1) it corrected the
                     instance prior to the review or (2) 3 master checks caused
                     41 early disbursements.

                     We dropped 1 instance based on Antonelli’s comments. We
                     agree Antonelli corrected some, but not all, of the instances
                     of noncompliance prior to the review; however, this does
                     not negate the finding. Antonelli’s poor management
                     controls permitted it to make inappropriate disbursements.
                     In addition, Antonelli’s corrections were not timely, often
                     being made two or more months after the fact. We agree 4
                     master checks, not 3, caused a majority of the instances of
                     early disbursements, however this does not negate the
                     finding. The number of instances of noncompliance, not the
                     number of master checks, is the relevant point; i.e.,
                     Antonelli made 41 early disbursements to 38 students.

                     2. Always make required refunds to ED and lenders or pay
                        credit balances to students or make the refunds and
                        payments timely. The file review disclosed 103
                        instances of noncompliance consisting of:

                        ! 11 instances of refunds not calculated or incorrectly
                          calculated [34 CFR 668.22];
                        ! 13 instances of unmade or untimely refunds of SFA
                          funds disbursed for students who did not start the
                          quarter [34 CFR 682.604(d)(3) and 668.21];
                        ! 9 instances of unmade or untimely refunds of
                          overpayments or double payments [34 CFR
                          668.16(c)];
                        ! 14 instances of unmade or untimely refunds of SFA
                          funds disbursed to ineligible students [34 CFR
                          668.16(c)];



FINAL AUDIT REPORT            Page 2               ED-OIG-AS, Audit Control Number 05-80008
                                                                        Audit Results

                        ! 6 instances of unmade or untimely refunds for
                          students who withdrew [34 CFR 668.22(j)(3) &
                          (4)]; and
                        ! 50 instances of no payment or untimely payment of
                          credit balances to students who graduated or
                          withdrew [34 CFR 668.165(b)(2)].

                     Antonelli generally disagreed with the finding. It disagreed
                     with 74 instances, the majority because (1) it corrected the
                     instance prior to the review, (2) Antonelli, at any point in
                     time, is holding disbursement rosters and not drawing down
                     funds that it could, (3) the credit balance regulations are
                     unclear as they apply to graduates, and (4) the refund time
                     frame applies to paying credit balances owed to students
                     who withdraw.

                     We dropped 3 instances based on Antonelli’s comments.
                     We agree Antonelli corrected some, but not all, of the
                     instances of noncompliance prior to the review by paying
                     the refund or credit balance; however, this does not negate
                     the untimely portion of the finding. Because of poor
                     management controls, Antonelli failed to pay several
                     refunds and credit balances, and failed to pay refunds and
                     credit balances timely. We disagree that holding
                     disbursement rosters and not drawing down funds equates
                     to making refunds. Until Antonelli draws down funds
                     reduced by the refund amounts, it has not completed the
                     refund transactions. We agree that the credit balance
                     regulations do not specifically address paying credit
                     balances to graduates. However, the regulations do
                     establish a 14 day time period for paying credit balances to
                     students who rescind the authorization for the school to
                     hold the funds for offset against future charges. Since the
                     students graduated, they will not have future charges. Any
                     outstanding charges at the time of graduation should already
                     have been offset against the credit balance. Therefore, the
                     balance should have been paid within 14 days of graduation.
                     Antonelli’s opinion that refund time frames apply to credit
                     balances owed to graduates is incorrect. Credit balances are
                     not refunds and are handled separately from the refund
                     process.

                     3. Comply with the FSEOG regulations when it selected
                        students for awards, awarded funds, and paid funds.
                        Our file review disclosed 59 instances of noncompliance
                        where Antonelli:


FINAL AUDIT REPORT            Page 3              ED-OIG-AS, Audit Control Number 05-80008
                                                                        Audit Results

                        ! awarded FSEOG to 5 non-Pell recipients even
                          though it did not make FSEOG awards to 7 Pell
                          recipients [34 CFR 676.10(a)];
                        ! awarded FSEOG below the minimum amount of
                          $100 to 16 students [34 CFR 676.20(a)(1)]; and
                        ! paid an amount different than the amount awarded
                          to 38 students [34 CFR 676.16].

                     Antonelli disagreed with each of the 3 kinds of exceptions in
                     the finding. According to Antonelli, the regulations state
                     FSEOG funds must be made available to non-Pell recipients.
                     Also, even though Antonelli made FSEOG awards for less
                     than $100, it did not disburse less than $100 to any of the
                     16 students. Further, the award is an estimated amount.

                     We made no changes to the report based on Antonelli’s
                     comments. Its comment that FSEOG funds must be made
                     available to non-Pell recipients completely disregards the
                     regulatory requirement [34 CFR 676.10(a)(2)] that, if
                     FSEOG funds remain after giving FSEOG awards to all
                     Pell recipients, then they shall award the remaining funds to
                     non-Pell recipients. Antonelli’s comment that we should
                     not consider as exceptions awards less than $100 because it
                     did not disburse funds less than $100 does not address the
                     point we raise. Antonelli’s actions in making the
                     noncompliant awards represents a deficiency in its process
                     for making awards, not in disbursing them, and
                     demonstrates, in part, an inability to adequately administer
                     the Title IV, HEA programs. In addition, in some instances,
                     Antonelli did disburse funds in amounts less than $100. We
                     agree that the award is an estimated amount based on
                     calculated need. If a student’s need changes, Antonelli
                     should document the change and the new calculation to
                     support the different disbursements. However, Antonelli’s
                     response indicated that it disbursed amounts different than
                     what it awarded because it ran out of funds. We believe
                     that awarding funds in excess of funds available further
                     demonstrates that Antonelli cannot adequately administer
                     the Title IV, HEA programs.

                     4. Properly document initial and exit counseling. The file
                        review disclosed 15 instances of noncompliance [34
                        CFR 682.604(f) & (g)] consisting of:

                        ! 7 files with no documented initial and exit
                          counseling;
                        ! 2 files with incomplete exit counseling forms; and

FINAL AUDIT REPORT            Page 4              ED-OIG-AS, Audit Control Number 05-80008
                                                                        Audit Results

                        ! 6 files with exit counseling not completed timely.

                     Antonelli generally agreed with the finding. It only
                     disagreed with 3 instances of noncompliance. For 2
                     instances, Antonelli provided the missing forms. For the
                     remaining instance, Antonelli said it met exit counseling
                     requirements but did not provide supporting documentation.

                     We dropped 2 of the instances based on the documentation
                     Antonelli provided. We still consider 1 instance to be an
                     exception because the exit counseling has not been
                     documented.

                     5. Maintain adequate records such as needs analysis,
                        disbursement notifications, enrollment agreements,
                        student ledger cards, class schedules, financial aid
                        transcripts, student status change forms, refund forms, a
                        leave of absence form, attendance forms, high school
                        graduation, verification documentation, and a
                        professional judgment decision. The file review
                        disclosed 40 instances of noncompliance consisting of:

                        ! 35 instances of documents which were missing,
                          contained incorrect information, or were not
                          properly completed;
                        ! 4 instances of different documents with conflicting
                          information; and
                        ! 1 instance of duplicate documents with conflicting
                          information [34 CFR 668.23(a) & (h), 676.19(b),
                          682.610(a) & (b), and 690.82(a)].

                     Antonelli generally disagreed with the finding. It disagreed
                     with 43 instances, the majority because (1) it corrected the
                     instance after the review, (2) the instance caused no harm,
                     and (3) there is no prescribed methodology for documenting
                     attendance and no requirement for consistency in
                     documenting attendance.

                     We dropped 8 exceptions related to financial aid transcripts
                     because Antonelli provided the Institutional Student
                     Information Record as support that it obtained the financial
                     aid history. We do not agree that correcting the finding
                     after the review or no resulting harm (presumably financial)
                     negates the finding. The fact that our review identified a
                     significant number of inadequate records, whether Antonelli
                     corrected them after we pointed them out or they did not
                     result in financial harm, demonstrates an inability to

FINAL AUDIT REPORT            Page 5              ED-OIG-AS, Audit Control Number 05-80008
                                                                        Audit Results

                     adequately administer the Title IV, HEA programs. We
                     agree that the regulations do not prescribe a methodology
                     for documenting attendance. However, our report does not
                     recommend that Antonelli should follow a single consistent
                     method for documenting attendance. The regulations do
                     require that records be accurate. We identified several
                     instances of partial attendance records as well as records
                     with errors and white outs which leads us to question their
                     accuracy. That is the basis for our conclusion that
                     attendance records were inadequate. In our opinion, the
                     statement that Antonelli is not required to be consistent in
                     documenting attendance implies that it is not concerned
                     about keeping accurate records.

                     6. Timely determine the withdrawal date for students who
                        drop out. We found 6 instances where the date of
                        determination was not timely. All instances involve the
                        Jackson location. Based on interviewing school officials
                        responsible for determining the withdrawal, it appears
                        the late determinations were caused by a lack of training
                        and adequate controls. The school officials did not
                        know the significance of the date of determination and
                        the school’s policy was not followed [34 CFR 668.16(b)
                        & (c)].

                     Antonelli disagreed with 6 of 7 instances of noncompliance.
                     It provided documentation to support that 1 determination
                     was timely. For 1 instance Antonelli disagreed because it
                     withdrew the student after the student failed to start a
                     quarter and, for 4 instances, it disagreed because the
                     withdrawal and termination policy states the student may be
                     terminated. Antonelli states the decision is the school’s
                     determination. Antonelli also states this policy does not
                     include a required time frame after the fifth absence has
                     occurred that the decision must be made.

                     We dropped the 1 instance based on documentation
                     Antonelli provided. For the 1 withdrawal, Antonelli did not
                     make a timely determination that the student did not start.
                     For the remaining 4 instances, Antonelli’s argument does
                     not address the finding. The students dropped out of
                     school. Therefore, the only determination to make was the
                     last date of attendance, not whether Antonelli had the
                     option to terminate the student.




FINAL AUDIT REPORT            Page 6              ED-OIG-AS, Audit Control Number 05-80008
                                                                            Audit Results

RECOMMENDATIONS        We recommend that OSFAP:

                       1. place Antonelli on reimbursement, impose significant
                          fines, and impose any other 34 CFR 668 Subpart G
                          action it deems appropriate;
                       2. instruct Antonelli to return $6,653 of SFA program
                          funds to ED and disburse $442 of credit balances to
                          students; and
                       3. instruct Antonelli to establish adequate checks and
                          balances in its management control system.



 ANTONELLI DID NOT     Antonelli’s accounting records did not accurately reflect all
 ADEQUATELY ACCOUNT    program transactions. Amounts in Antonelli’s Pell and
 FOR PELL AND FSEOG    FSEOG accounting records did not always agree with the
 TRANSACTIONS          student ledger cards and amounts in the Pell accounting
 INCLUDING REFUNDS     records did not always agree with the Pell Student Payment
                       Summary. Pell and FSEOG disbursement dates on the
                       student ledger cards did not always agree to actual
                       disbursement dates. In addition, Antonelli’s method for
                       making and recording refunds did not leave an adequate
                       audit trail. Antonelli needs to accurately record all program
                       transactions.

 Program Regulations   Program regulations require accurate accounting records
 Require Accurate      that reflect all transactions. The Pell regulations, 34 CFR
 Records               690.82(a)(3), require an institution to maintain records
                       indicating the amount and date of each transaction. The
                       FSEOG regulations, 34 CFR 676.19(b), require an
                       institution to maintain, on a current basis, financial records
                       that reflect all program transactions.

 Amounts in Records    Antonelli’s accounting records are rosters it uses to request
 Differ                Pell and FSEOG funds from ED. Antonelli uses these
                       rosters to post Title IV transactions to the student ledger
                       cards. The amounts on the rosters should agree with the
                       amounts on the student ledger cards. In addition, the Pell
                       amounts on the rosters and student ledger cards should
                       agree with the amounts on the Pell Student Payment
                       Summary. Our review, however, disclosed discrepancies
                       between the records. The Pell amounts on the rosters for 9
                       of 134 Pell recipients in our sample differed from the
                       amounts on the student ledger cards and/or the Pell Student
                       Payment Summary. The FSEOG amounts on the rosters for
                       16 of the 93 FSEOG recipients in our sample differed from
                       the amounts on the student ledger cards.


FINAL AUDIT REPORT              Page 7                ED-OIG-AS, Audit Control Number 05-80008
                                                                          Audit Results

                      Antonelli disagreed with the finding, implying the deficiency
                      was not significant. It stated that the exceptions relate
                      mainly to the Jackson location, that no errors are related to
                      the Cincinnati location and only minor errors are related to
                      the Hattiesburg location. Antonelli stated the college has
                      now computerized the entire accounts receivable system and
                      significantly enhanced the quality control system, which
                      should eliminate any of the “human error.”

                      Contrary to Antonelli’s assertion, the exceptions apply to all
                      three locations. Antonelli’s stated corrective action may
                      solve the problem in the future. However, it does not
                      obviate the need to reconcile the records for the 1996-97
                      award year and have an independent public accountant
                      attest to the accuracy of the reconciliation.

 Refund Records are   Antonelli made Pell and FSEOG refunds by offsetting
 Inadequate           refund amounts against future fund draw downs, requesting
                      the net amount. This process did not leave a clear audit
                      trail. Because of Antonelli’s inadequate records, we found
                      it difficult to determine if and when Antonelli made required
                      refunds. According to 668.23(h)(1)(iv) & (h)(3), the
                      institution shall establish and maintain records regarding
                      refunds paid to the Title IV, HEA programs and the records
                      are to be systemically organized.

                      Antonelli states its method for processing refunds is in
                      compliance with the SFA regulations. It explained that if a
                      Pell or FSEOG refund was due, this refund was offset
                      against funds that were due the institution for eligible
                      recipients. In all cases, the eligible payment was due the
                      school before the due date of the refund.

                      Antonelli’s comments do not address the finding. Because
                      the refund process may comply with the regulations does
                      not mean the underlying records are adequate. Antonelli
                      did not submit documentation to support the comment that
                      the eligible payment was due the school before the due date
                      of the refund.

RECOMMENDATIONS       OSFAP should instruct Antonelli to:

                      1. establish and implement controls to ensure that all
                         program transactions are accurately recorded;
                      2. reconcile its Pell and FSEOG accounting records for the
                         1996-97 award year to ensure that all transactions for
                         that year are recorded accurately and have an

FINAL AUDIT REPORT             Page 8               ED-OIG-AS, Audit Control Number 05-80008
                                                                        Audit Results

                        independent public accountant attest to the accuracy of
                        the reconciliation; and
                     3. make refunds by writing checks payable to the Federal
                        account.




FINAL AUDIT REPORT           Page 9               ED-OIG-AS, Audit Control Number 05-80008
                                                                                                     Appendix

Background. Antonelli is a proprietary school located in Cincinnati, Ohio with additional
locations in Jackson and Hattiesburg, Mississippi. The Cincinnati location is licensed by the State
of Ohio State Board of Proprietary School Registration. The Mississippi locations are licensed by
the State of Mississippi Commission on Proprietary School and College Registration. Antonelli is
accredited by the Accrediting Commission of Career Schools and Colleges of Technology located
in Arlington, Virginia.

From July 1, 1996 through June 30, 1997, Antonelli participated in the Federal Work Study,
FSEOG, FFEL, and Pell SFA programs. Except for loans, it reported to ED that it disbursed
Federal funds totaling $837,129 for the 1996-97 award year, consisting of $13,085 of Federal
Work Study, $22,573 of FSEOG, and $801,471 of Pell. Title IV of the HEA, as amended,
authorized these programs. The regulations contained in Title 34 of the CFR, Parts 675, 676, 682
and 690, implemented the four programs. In addition, these programs were subject to the
provisions contained in both the Institutional Eligibility regulations [34 CFR 600] and the Student
Assistance General Provisions regulations [34 CFR 668]. All regulatory citations in the report are
to the codification in effect as of July 1, 1996.

Purpose, Objectives, Scope, and Methodology. The purpose of our audit was to determine
whether Antonelli administered the SFA programs in accordance with applicable laws and
regulations. Our specific objectives included reviewing and evaluating: (1) management controls;
(2) institutional and program eligibility; (3) cash management and accounting; and (4) selected
administrative and compliance requirements including financial responsibility, student eligibility,
award calculations and disbursements, refunds, and overpayments. To achieve the purpose and
specific objectives, we reviewed: written operating policies and procedures; 160 randomly
selected files from a total of 703 files [40 of 207 from Cincinnati, 68 of 326 from Jackson, and 52
of 170 from Hattiesburg]; the most recent SFA audit reports and related working papers; the most
recent program review reports prepared by the Region V Institutional Review Branch; State
licensing and accrediting agency documents; school catalogs; bank records; ED's eligibility files
and other documents; and accounting and administrative records. We also interviewed Antonelli
officials, ED headquarters and regional personnel, and Antonelli's independent public accountant.
Our audit period covered the year ended June 30, 1997. Because a student’s awards usually
overlapped into the preceding or following award year, we expanded our audit period to cover
the student’s entire enrollment period.

We conducted on-site field work at all three campuses and at the independent public accountant's
office from February 4, 1998 to May 7, 1998. We conducted our audit in accordance with
government auditing standards appropriate to the scope described above.

Statement on Management Controls. As part of our audit, we made an assessment of
Antonelli’s management control structure, policies, procedures, and practices applicable to the
SFA programs. The purpose of our assessment was to determine the level of control risk; that is,
the risk that material errors, irregularities, or illegal acts may occur. The control risk assessment
was performed to assist us in determining the nature, extent, and timing of substantive tests
needed to accomplish our audit purpose and objectives.

To make the assessment, we identified and classified the significant internal administrative
controls into five categories: institutional eligibility; program eligibility; student eligibility; cash
management; and file maintenance.

FINAL AUDIT REPORT                                 Page 10                ED-OIG-AS, Audit Control Number 05-80008
                                                                                               Appendix

Because of inherent limitations, a study and evaluation made for the limited purpose described
above would not necessarily disclose all material weaknesses in the control structure. However,
we identified material weaknesses that adversely affected Antonelli's ability to administer the SFA
programs. We categorized the material weaknesses into two major findings pertaining to
Antonelli's inability to administer the SFA programs and account for SFA transactions as
discussed in the Audit Results section of the report.




FINAL AUDIT REPORT                             Page 11              ED-OIG-AS, Audit Control Number 05-80008
                           REPORT DISTRIBUTION LIST
                                                                                                No. of
                                                                                                Copies
Auditee (Original)

Action Official
Greg Woods
Chief Operating Officer
Office of Student Financial Assistance Programs . . . . . . . . . . . . . . . . . . 1

Other ED Offices
Service Director, Institutional Participation and Oversight Service . . . . . . . . . . . . . . . . . . . . . . . 1

Audit Liaison, Institutional Participation and Oversight Service (Patricia Trubia) . . . . . . . . . . . . 1

Office of Public Affairs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

Service Director, Accounting and Financial Management Service . . . . . . . . . . . . . . . . . . . . . . . . 1

Post Audit Group Supervisor . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

Chicago Team Area Case Director . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

Secretary's Regional Representative, Region V . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

ED-OIG
Inspector General (Acting) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Electronic Copy

Deputy Inspector General (Acting) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Electronic Copy

Assistant Inspector General for Audit (Acting) . . . . . . . . . . . . . . . . . . . . . . . . . Electronic Copy

Assistant Inspector General for Investigation (Acting) . . . . . . . . . . . . . . . . . . . . Electronic Copy

Assistant Inspectors General for Operations . . . . . . . . . . . . . . . . . . . . Electronic Copies (1 Each)

Director, Advisory and Assistance, Student Financial Assistance . . . . . . . . . . . . Electronic Copy

Director, Planning, Analysis, and Management Services . . . . . . . . . . . . . . . . . . . Electronic Copy

Audit Services . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

Regional Inspector General for Investigation . . . . . . . . . . . . . . . . . . . . . . . . . . . Electronic Copy

Regional Inspectors General for Audit . . . . . . . . . . . . . . . . . . . . . . . . Electronic Copies (1 Each)

Region V Audit Office . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Electronic Copies (2)
